No. 19-247
INTHE

~upreme QCourt of tbe Wniteb ~tates
CITY OF BOISE,

Petitioner,

V.

ROBERT MARTIN, ET AL. ,

R espondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I hereby certify that the Brief for

Amici Curiae Seven Cities in Orange County in Support of Petitioner in City of Boise
v. Martin, No. 19-24 7, complies with the word limitations, as it contains 5,111 words.
I declare under penalty of perjury that the foregoing is true and correct .

Date: September 25, 2019

